August 2009
Report No. AUD-09-019


Material Loss Review of 1st Centennial
Bank, Redlands, California




             AUDIT REPORT
                                            Report No. AUD-09-019                                                                            August 2009

                                            Material Loss Review of 1st Centennial Bank,
                                            Redlands, California
 Federal Deposit Insurance Corporation
                                            Audit Results
Why We Did The Audit
                                            Cause of Failure and Material Loss - 1st Centennial failed primarily due to bank management’s pursuit of
As required by section 38(k) of the         asset growth concentrated in high-risk CRE/ADC loans without adequate loan underwriting and credit
Federal Deposit Insurance Act, the          administration practices. In addition to a concentration in CRE/ADC loans, the bank also concentrated its
Office of Inspector General (OIG)           loan portfolio in one geographic area that experienced a severe economic downturn, further increasing the risk
conducted a material loss review of the     to the bank. The bank did not ensure that underwriting adequately considered the borrowers’ ability to repay
failure of 1st Centennial Bank,             and the adequacy of the underlying collateral. Credit administration practices did not sufficiently ensure that
Redlands, California (1st Centennial).      CRE/ADC loans were adequately managed and monitored. Examiners determined that 1st Centennial’s asset
On January 23, 2009, the State of           quality was seriously deficient at the FDIC’s April 2008 examination, primarily due to deterioration in the
California, Department of Financial         bank’s CRE/ADC loan portfolio. Also, examiners found that the bank became increasingly dependent on
Institutions (CDFI), closed 1st             wholesale funding, including brokered deposits. The examiners concluded that bank management failed to
Centennial and named the FDIC as            implement adequate risk management controls to effectively mitigate loan portfolio risk and ensure that the
receiver. On February 11, 2009, the         allowance for loan and lease losses (ALLL) was properly funded. Significant provisions to the ALLL
FDIC notified the OIG that 1st              reduced earnings, eroded capital, and tightened the bank’s liquidity position. Ultimately, the bank became
Centennial’s total assets at closing were   critically undercapitalized and failed.
$784 million, with a material loss to the
Deposit Insurance Fund (DIF) estimated      Assessment of FDIC Supervision and PCA Implementation - The FDIC and CDFI conducted timely
at $226.6 million. As of July 17, 2009,     examinations of 1st Centennial from 1990 until its closing in 2009 and identified the primary causes of 1st
the estimated loss to the DIF had           Centennial’s failure. There were, however, two areas in which the FDIC’s supervisory activities regarding
decreased to $215.4 million.                1st Centennial could have been improved. These areas were related to (1) the supervisory efforts to address
                                            the bank’s CRE/ADC loan concentrations and (2) the timeliness of the FDIC’s formal enforcement actions.
The audit objectives were to
                                            Examiners identified the bank’s high CRE/ADC concentration as early as the 2004 examination. The April
(1) determine the causes of the financial
                                            2006 FDIC examination concluded that the high level of construction loans—representing 611 percent of
institution’s failure and resulting
                                            Tier 1 Capital—posed a potential risk to the bank. However, examiners also reported that (1) bank
material loss to the DIF and (2) evaluate
                                            management was effectively monitoring and managing the risk associated with such a concentration and
the FDIC’s supervision of the
                                            (2) management recognized the need to prudently balance the loan portfolio as the bank continued to grow.
institution, including implementation of
                                            Accordingly, the FDIC did not take action to limit those concentrations. High concentration levels were also
the Prompt Corrective Action (PCA)
                                            found in other examinations including the CDFI February 2007 examination which noted that the CRE
provisions of section 38. Our ability to
                                            concentration represented over 581 percent of Tier 1 Capital but did not make recommendations to address
evaluate supervisory efforts prior to the
                                            this condition.
April 2008 examination was limited
because the retention of work papers        The April 2008 FDIC examination reported $110 million of adverse classifications, composed primarily of
beyond one examination is generally         CRE/ADC loans, that resulted in a significant and rapid deterioration of the bank’s financial condition. To
discouraged in accordance with FDIC         address the deterioration, the bank agreed to raise $30 million in additional capital by August 1, 2008, which
policies.                                   did not occur. As a result of the 2008 examination, the FDIC and state regulatory agency proposed a Cease
                                            and Desist Order (C&D) to address the bank’s significant deterioration and inadequate risk management
Background                                  controls. The bank entered into extended negotiations with the FDIC and the CDFI regarding the provisions
                                            of the C&D and, ultimately, refused to stipulate to the order. The FDIC pursued additional action, a Notice of
1st Centennial was insured on August 1,     Charges, which was pending when the bank failed. The FDIC and CDFI conducted a joint visitation of the
1990 and was headquartered in               bank during November 2008 and found that the CRE/ADC loan portfolio and bank’s overall financial
Redlands, California. At closing, the       condition had deteriorated further. Accordingly, the CDFI issued the bank a capital demand letter, and the
bank had six branches in Southern           FDIC downgraded the bank’s ratings and issued a PCA Notification Letter on December 19, 2008, indicating
California. The bank was fully owned        that the bank was Critically Undercapitalized. These actions were too late to address the bank’s problems.
by 1st Centennial Bancorp, a bank           1st Centennial became Adequately Capitalized after filing its September 30, 2008 Report of Condition and
holding company, but did not have any       Income on October 31, 2008. As discussed above, the FDIC formally notified the bank that it was Critically
affiliates or subsidiaries.                 Undercapitalized based on the results of the November 2008 visitation in accordance with PCA provisions.

1st Centennial’s loan portfolio was         The FDIC OIG plans to issue a series of summary reports on material loss reviews and will make appropriate
concentrated in commercial real estate      recommendations related to the failure of 1st Centennial and other FDIC-supervised banks at that time.
(CRE) loans, including acquisition,
development, and construction (ADC)         Management Response
loans in single-family residence (SFR)
tract construction. These CRE/ADC           On August 4, 2009, the Director, Division of Supervision and Consumer Protection (DSC), provided a written
loans were also highly concentrated         response to the draft report. In its response, DSC stated that 1st Centennial failed due to the bank’s risk
geographically in Southern California’s     associated in its loan concentrations and funding strategies and due to a decline in its local real estate market.
Inland Empire. Beginning in 2007, the       DSC also stated that 1st Centennial’s recovery efforts were significantly hampered by other market events
Inland Empire was affected by a decline     that led to a large volume of deposit withdrawals and secondary mortgage market upheaval. In addition, the
in land and residential home values as      Director stated that DSC (1) conducted an internal analysis following 1st Centennial’s failure, (2) has taken
well as high levels of unemployment.        specific steps to limit growth that is funded by volatile non-core deposits, and (3) recognizes the threat that
                                            institutions with high-risk profiles, such as 1st Centennial’s pose to the DIF.




 To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                             Page

BACKGROUND                                                             2

CAUSES OF FAILURE AND MATERIAL LOSS                                    4
  Local Economic Impact                                                4
  Deficient Asset Quality and Inadequate Risk Management Controls      5
  Excessive CRE/ADC Loan Concentrations                                5
  Loan Losses and Classifications                                      7
  Problems Related to the Allowance for Loan and Lease Losses          8
  Significant Loan Underwriting and Credit Administration Problems     9
    High-Risk Owner-Occupied Single-Family Home Construction           9
    Inappropriate Interest Reserve Payments                           10
    November 2008 Visitation Results                                  10
  Wholesale Funding                                                   10

ASSESSMENT OF FDIC SUPERVISION                                        12
  Supervision Related to the CRE/ADC Concentration                    13
  Formal Enforcement Action Implementation                            15
  Additional Supervisory Action                                       16
  Actions Taken Subsequent to 1st Centennial’s Failure                16

IMPLEMENTATION OF PCA                                                 17

CORPORATION COMMENTS AND OIG EVALUATION                               18

APPENDICES

  1. OBJECTIVES, SCOPE, AND METHODOLOGY                               19
  2. GLOSSARY OF TERMS                                                22
  3. CORPORATION COMMENTS                                             23
  4. CHRONOLOGY OF SIGNIFICANT EVENTS                                 24
  5. ACRONYMS IN THE REPORT                                           25
TABLES

  1. Financial Condition of 1st Centennial                             3
  2. Indicators of Economic Downturn in California                     4
  3. 1st Centennial’s Adversely Classified Assets and ALLL             8
  4. 1st Centennial’s Net Income (Loss) and ALLL                       9
  5. 1st Centennial’s Funding Sources by Examination Date             11
FIGURES

  1. ADC Loans as a Percentage of Average Loans                        6
  2. Net Non-Core Funding Dependence                                  12
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     August 11, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of 1st Centennial Bank,
                                          Redlands, California
                                          (Report No. AUD-09-019)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss1 review of the failure of 1st
Centennial Bank (1st Centennial). On January 23, 2009, the California Department of
Financial Institutions (CDFI) closed the institution and named the FDIC as receiver. On
February 11, 2009, the FDIC notified the OIG that 1st Centennial’s total assets at closing
were $783.5 million with an estimated loss to the Deposit Insurance Fund (DIF) of
$226.6 million. As of July 17, 2009, the estimated loss to the DIF had decreased to
$215.4 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of
the institution, including implementation of the PCA provisions of section 38 of the FDI
Act. Appendix 1 contains details on our objectives, scope, and methodology; Appendix 2
contains a glossary of terms; Appendix 3 contains the FDIC’s comments to the report;


1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    Appendix 4 contains a chronology of significant events; and Appendix 5 contains a list of
    acronyms used in the report.

    This report presents the FDIC OIG’s analysis of 1st Centennial’s failure and the FDIC’s
    efforts to ensure 1st Centennial’s management operated the bank in a safe and sound
    manner. The FDIC OIG plans to issue a series of summary reports on our observations
    on the major causes, trends, and common characteristics of financial institution failures
    resulting in a material loss to the DIF. Recommendations in the summary reports will
    address the FDIC’s supervision of the institutions, including implementation of the PCA
    provisions of section 38.


BACKGROUND

    1st Centennial, insured by the FDIC on August 1, 1990, was a state, nonmember bank
    with six branches and was headquartered in Redlands, California. 1st Centennial
    provided traditional banking activities within the Southern California area and focused
    extensively on commercial real estate (CRE) loans, including acquisition, development,
    and construction (ADC) loans in single-family residence (SFR) tract construction. The
    bank was fully owned by 1st Centennial Bancorp, a bank holding company, but did not
    have any affiliates or subsidiaries.

    DSC’s Los Angeles North Field Office and CDFI performed regular safety and
    soundness examinations of 1st Centennial, conducting five examinations from May 2004
    through April 2008. The FDIC performed examinations in 2004, 2006, and 2008,3 while
    California’s CDFI performed examinations in 2005 and 2007. In addition, the FDIC and
    CDFI conducted a visitation in November 2008 that focused solely on a review of the
    bank’s CRE/ADC construction loan portfolio.4

    1st Centennial specialized in CRE/ADC loans for SFR tract construction, which was
    significantly concentrated in the Inland Empire (Riverside, California-San Bernardino,
    California, metropolitan area) of Southern California. 1st Centennial experienced record
    profitability in 2007. On October 12, 2007, 1st Centennial issued a press release stating
    that the bank had record third-quarter earnings of $2.2 million and $6.2 million for the
    year to date. However, the bank suffered significant losses in 2008, and on August 7,
    2008, 1st Centennial issued a press release stating that the bank had posted a $2.8 million
    quarterly loss. By December 31, 2008, 1st Centennial’s losses exceeded $50 million.

    3
      The FDIC’s 2004 and 2006 examinations were conducted under the FDIC’s Maximum Efficiency, Risk
    Focused, Institution Targeted (MERIT) Guidelines. The FDIC followed MERIT guidelines, dated
    January 27, 2004, in performing examinations for Well Capitalized banks with a 1 or 2 composite rating for
    the two most recent examinations and that met other criteria in the guidelines. MERIT guidelines were
    rescinded on March 12, 2008 after a 2007 DSC study showed that examiners were appropriately risk-
    scoping examination activities based on institution risk and that the MERIT procedures were no longer
    necessary.
    4
      Although the FDIC and CDFI initiated a visitation and loan review, neither of those efforts was
    completed before the bank failed. Therefore, although the FDIC provided a draft report on the November
    visitation results, neither the FDIC nor the CDFI issued a final report on the visitation results.



                                                        2
Details on 1st Centennial’s financial condition for the calendar years 2005 through 2008,
and March 31, 2008 follow in Table 1.

Table 1: Financial Condition of 1st Centennial
                                        12-31-2008       03-31-2008     12-31-2007   12-31-2006   12-31-2005
 Total Assets ($000s)                    $797,959            $715,231    $689,104     $550,672    $455,732
 Total Deposits ($000s)                  $678,570            $495,332    $479,035     $457,956    $402,309
 Total Loans ($000s)                     $508,917            $524,668   $521,449     $431,941     $386,529
 Net Loan Growth Rate                    (7.36)%             15.76%      20.75%       11.82%       23.74%
 Net Income (Loss) ($000s)               ($50,002)           ($1,150)     $9,353       $8,992       $6,031
 Loan Mix (% of Avg. Gross Loans):
 All Loans Secured by Real Estate         61.13%             62.60%      61.39%       60.92%       64.29%
  Construction and Development (ADC)      42.09%             45.55%      42.39%       38.61%       37.60%
  CRE - Nonfarm/nonresidential            15.11%             13.95%      15.10%       18.19%       22.58%
  Multifamily Residential Real Estate     1.12%               1.14%       1.25%        1.47%        1.19%
  1-4 Family Residential – excluding
                                          2.75%               1.91%       2.05%        2.47%        2.84%
  Home Equity Lines of Credit
  Home Equity Loans                       1.74%               1.43%       1.47%        1.79%        1.71%
 Commercial and Industrial Loans          36.14%             34.58%      36.04%       37..57%      34..81%

 Funding:

 Net Loans/Deposits                       70.26%             104.65%     107.43%      93.07%       94.74%

 Core Deposits/Average Assets             63.50%             56.20%      62.89%       70.42%       69.93%

 Brokered/Average Assets                  23.81%              6.49%       7.75%        6.89%        6.41%

 Large Time/Average Assets                11.05%             13.19%      15.61%       15.67%       13.82%
 Federal Home Loan Bank (FHLB)
                                          11.07%             10.25%       2.92%         0%          4.81%
 Borrowings/Average Assets
 Net Non-Core Dependency Ratio            68.39%             44.12%      40.49%       28.60%       11.68%
                                                     a
 Examination/Visitation Dates           11-24-2008       04-07-2008     02-26-2007   04-24-2006   01-31-2005
                                        FDIC and
 Examination Conducted By                                     FDIC        CDFI         FDIC         CDFI
                                         CDFI
                                b
 Component/Composite Ratings             555555/5            444443/4   221122/2     221121/2     212232/2

 Adverse Classifications Ratio            1,049%             177.62%      7.11%        8.85%        8.44%
Source: Uniform Bank Performance Reports (UBPR) and Reports of Examination (ROEs) for 1st
Centennial.
a
  FDIC visitation and CDFI visitation.
b
  Financial institution regulators and examiners use the Uniform Financial Institutions Rating System
(UFIRS) to evaluate a bank’s performance in six components represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Each component, and an overall composite score, is assigned a rating of 1
through 5, with 1 having the least regulatory concern and 5 having the greatest concern.


The growth in adverse classifications in 2008 from 1st Centennial’s deteriorating
CRE/ADC loan portfolio reduced earnings (causing a $50 million loss), due in part to a
large increase ($32 million) in the allowance for loan and lease losses (ALLL), and
decreased capital. The growth in the adverse classifications also affected 1st
Centennial’s liquidity because past-due loan payments increased. 1st Centennial bought


                                                         3
      approximately $300 million in brokered deposits during the second half of 2008, thereby
      increasing total deposits and total assets for 2008.


CAUSES OF FAILURE AND MATERIAL LOSS

      The failure of 1st Centennial and resulting material loss to the DIF was due to bank
      management’s pursuit of rapid asset growth concentrated in high-risk CRE/ADC loans
      without adequate risk management controls and loan underwriting and credit
      administration practices. The fact that those CRE/ADC loans were concentrated in SFR
      construction and in one geographic area increased the risk in the bank’s loan portfolio.
      Losses in the CRE/ADC loan portfolio, driven by a downturn in the economy, severely
      eroded earnings, capital, and liquidity, and the bank increased its dependence on
      wholesale funding sources. The bank failed due to a lack of capital as a result of these
      loan losses. The resulting loss to the FDIC’s DIF was estimated at $226.6 million but
      decreased to $215.4 million, as of July 17, 2009.


Local Economic Impact

      The Inland Empire and other areas in California experienced some of the highest rates of
      home price appreciation in the first half of the decade.5 Rapid population growth in this
      area spurred higher-than-average rates of home construction. According to Moody’s, the
      Riverside economy contracted amid weakened house construction activity and the United
      States and global downturns in industrial production. As indicated in Table 2, which
      follows, certain indicators showed that the economic conditions in California, and
      particularly the Inland Empire, were slowing considerably during 2007 and 2008.

      Table 2: Indicators of Economic Downturn in California
                                    Personal        Single Family
          Year        Total          Income         Construction       Mortgage           Personal
                   Employment      Growth Rate         Permits        Originations      Bankruptcies
                   (Thousands)
       California
         2006         15,060        7.7%            107,714              729,134            37,107
         2007         15,173        5.2%            68,266               556,452            69,110
         2008         15,000        3.2%             32,879              366,989           126,819
       Riverside, California
         2006         1,267.7       7.8%            33,498                99,532            4,051
         2007         1,270.9       4.4%            16,019                61,324            8,814
         2008         1,223.0       1.6%              5,750               41,033           18,338
      Source: Moody’s Economy.com, Précis STATE®, April 2009.




      5
       FDIC Quarterly, 2009, Volume 3, No. 1, article entitled, The 2009 Economic Landscape: The Sand
      States: Anatomy of a Perfect Housing-Market Storm.


                                                       4
      Examiners concluded that the market downturn and the declining housing market in the
      Inland Empire were partially responsible for 1st Centennial’s financial deterioration.
      However, examiners also indicated that, while the distressed housing market negatively
      impacted asset quality, inadequate credit administration and internal controls caused
      further erosion of the loan portfolio. 1st Centennial’s bank management stated that the
      housing market was deteriorating at such an accelerated pace that it was difficult for them
      to properly evaluate the bank’s loan portfolio.


Deficient Asset Quality and Inadequate Risk Management Controls

      Examiners found 1st Centennial’s asset quality to be seriously deficient during the
      FDIC’s April 2008 examination, primarily due to deterioration in the bank’s CRE/ADC
      loan portfolio. The examiners also found that bank management failed to implement
      adequate risk management controls to effectively recognize loan portfolio risk, ensure the
      proper use of interest reserves, institute a sound loan approval process, and appropriately
      fund the ALLL. In addition, at the 2008 examination, examiners noted that (1) internal
      control weaknesses in underwriting and credit administration in the bank’s Construction
      Loan Department appeared to have gone uncorrected by management for many years,
      and (2) the internal loan review function was inadequate. Examiners also concluded that
      the CRE/ADC concentration, coupled with inadequate internal controls, resulted in
      extremely high levels of adversely classified assets, significant provisions to the ALLL,
      negative earnings, capital erosion, and a tightened liquidity position. Further, examiners
      reported that the deterioration in the bank’s asset quality would not have been as severe
      had bank management implemented strong internal controls before the economic
      downturn, when the bank’s financial condition was better.

      1st Centennial’s asset quality received a 2 (satisfactory) rating during the 2004, 2006, and
      2007 examinations; and a 1 (strong) rating during the 2005 examination. The April 2008
      examination and November 2008 visitation progressively downgraded asset quality to 4
      and 5, respectively. The downgrades indicated that the bank’s level of risk and problem
      assets were significant and inadequately controlled, subjecting the bank to high levels of
      actual and potential losses. During the November 2008 visitation, examiners concluded
      that 1st Centennial’s asset quality had become critically deficient and presented an
      imminent threat to the bank’s viability.


Excessive CRE/ADC Loan Concentrations

      Examiners identified substantial loan losses, payment delinquencies, and management
      deficiencies during 2008 that were centered in 1st Centennial’s CRE/ADC loan
      concentrations. 1st Centennial had implemented a high-growth strategy in CRE/ADC
      loans, beginning in 2004. In addition to concentrating in high-risk CRE/ADC loans, the
      bank had two further concentrations of its loan portfolio. Specifically, the portfolio was
      significantly concentrated in SFR tract construction loans and was geographically
      concentrated within the bank’s local market area in the Inland Empire.



                                                   5
1st Centennial’s high CRE/ADC loan concentrations are shown in Figure 1, which
follows. The bank’s CRE/ADC concentration ranged from 37 percent to 42.9 percent of
average total loans between 2003 and 2008. The bank was consistently in the 93rd to 98th
percentile of its peer group for this measure. In contrast, the peer group’s CRE/ADC
concentration measure ranged from 9.16 percent to 16.31 percent during the same period.
                              Figure 1: ADC Loans as a Percentage of Average Loans

              50%
              45%                    41.40%                                    42.93%       42.09%
                    37.00%                        37.60%       38.61%
              40%
              35%
              30%                                                                                       1st Centennial
      Ratio




              25%
                                                                                   16.31%               Peer
              20%
              15%                         9.98%       12.72%          14.96%                   15.26%
                             9.16%
              10%
               5%
               0%
                     Dec-03           Dec-04      Dec-05        Dec-06         Dec-07        Dec-08
                                                    Period End Date


              Source: UBPRs for 1st Centennial.

As part of their examinations, examiners identified and measured the extent of 1st
Centennial’s CRE/ADC loan concentrations as a percentage of the bank’s Tier 1 Capital.
The examiners’ review of the CRE/ADC loan concentrations during the 2004, 2006,
2007, and 2008 examinations and 2008 visitation determined that the concentrations
represented the following levels of Tier 1 Capital:

      •       2004 examination–659 percent,
      •       2006 examination–611 percent,
      •       2007 examination–581 percent,
      •       2008 examination–568 percent, and
      •       2008 visitation–569 percent.

The bank’s CRE/ADC loans were further concentrated in SFR tract construction loans.
Examiners determined that SFR tract construction loans represented high percentages of
the bank’s CRE/ADC portfolio as follows:

      •       2004 examination–63 percent,
      •       2006 examination–68 percent,
      •       2007 examination–78 percent, and
      •       2008 visitation–46 percent.6



6
    The 2008 ROE did not include specific percentages on the level of SFR concentration.


                                                           6
      A geographic distribution summary performed during the 2007 examination showed that
      the CRE/ADC loan portfolio was also geographically concentrated with almost
      90 percent of the CRE/ADC construction projects located in the Inland Empire (Riverside
      and San Bernardino counties), as indicated below.

         •   55.8 percent in Riverside County, California;
         •   33.4 percent in San Bernardino County, California; and
         •   10.8 percent in other Southern California counties (Imperial, Los Angeles,
             Orange, San Diego, and Ventura)

      1st Centennial’s ADC loans increased from 292 percent to 383 percent of total capital
      between December 31, 2006 and December 31, 2007, exceeding the regulatory threshold
      of 100 percent for this measure. The percentage of ADC loans to total capital on
      December 31, 2008, was 1,264 percent. However, the December 31, 2008 percentage
      was high, due, in part, to the bank’s extensive losses resulting in a reduced capital level.
      Regarding the level of ADC loans to total capital, 1st Centennial was consistently in the
      90th to 96th percentile of its peer group.


Loan Losses and Classifications

      According to the April 2008 ROE and the November 2008 draft visitation report, a high
      level of CRE/ADC loan losses had accrued due to a combination of external and internal
      factors during 2008. In addition, the bank’s internal loan grading system was considered
      inadequate and was not effectively classifying loans, leading to the untimely recognition
      of problem assets, an inaccurate ALLL, and a misrepresentation of the bank’s capital and
      earnings. During the examination and visitation, examiners’ recognition of problem
      assets and the subsequent downgrade of numerous loans resulted in adversely classified
      assets, including Other Real Estate Owned (OREO), which severely affected the ALLL
      and significantly eroded the bank’s capital.

      External factors, in large part, caused the bank to suffer increased loan losses, which
      affected the viability of the institution. Most significantly, reductions in land and
      residential home values, a significant increase in the unemployment rates, and poor
      single-family home sales in the Inland Empire caused a substantial number of the bank’s
      CRE/ADC borrowers to stop developing their projects, cease making payments, or refuse
      to invest additional funds into a project.

      Additional problems within the institution affected the bank’s ability to weather the
      economic downturn. Internal control inadequacies and poor bank management oversight
      identified by examiners in 2008 included inappropriate use of interest reserves and an
      inadequate interest reserve policy, an ineffective loan grading system, a weak loan
      approval process, and a lack of current borrower financial statements to assess the
      borrower’s and/or guarantor’s ability to repay the loan in light of declining collateral
      value—all of which contributed to the bank’s loan losses. Examiners found several loans
      where the bank either had not placed the loan into a non-accrual status or had delayed
      placing the loans into a non-accrual status when payments were 100 to 160 days past due.


                                                   7
     Delays in placing loans in a non-accrual status postponed accrued interest reversals,
     where needed, and prevented timely recognition of the problem status of loans so that the
     bank could initiate appropriate collection or other activities.


Problems Related to the Allowance for Loan and Lease Losses

     Although the loan portfolio grew steadily, the ALLL remained relatively constant without
     significant increases, and adverse classifications actually declined between the 2006 and
     2007 examinations (as noted in Table 3 below). However, as previously discussed,
     during the FDIC’s April 2008 examination and November 2008 visitation, examiners
     identified a substantial amount of loan downgrades. The loan downgrades identified in
     the April 2008 examination resulted in the need for an additional $6.0 million provision
     for 1st Centennial’s ALLL. Table 3, which follows, presents the amount of assets that
     were adversely classified during examinations and the visitation conducted between 2004
     through 2008, the ALLL funding level that 1st Centennial computed, and the increases
     needed to the ALLL that examiners computed. The examiners performing the November
     2008 visitation did not recompute the bank’s ALLL based on the additional loan
     downgrades identified.

     Table 3: 1st Centennial’s Adversely Classified Assets and ALLL
                                                                    Asset Quality
                                                                (Dollars in Thousands)

                                 Examiner Adversely Classified Asset Amounts                         ALLL Amounts
                                                                                                ALLL
                                                                               Total          Computed      Increase in ALLL
       Examination/                                                          Adversely          by 1st        Computed by
      Visitation Date     Substandard       Doubtful          Loss        Classified Items    Centennial       Examiners
     May 2004                   $2,202            $54                $0              $2,256        $2,449                  $0
     January 2005                $2,955           $289           $10                $3,254         $3,448                  $0
     April 2006                  $4,110           $490            $0                $4,600         $5,376                  $0
     February 2007               $4,244            $50            $0                $4,294         $5,741                  $0
     April 2008                $106,318           $217        $3,038              $109,573         $6,317              $6,000
     November 2008*             $75,800        $23,800     $16,300                $115,900       $22,600       Not computed*
     Source: FDIC and CDFI ROEs and UBPRs for 1st Centennial.
     * Although the FDIC reviewed the ALLL during this visitation, the draft visitation report did not include
     information related to a computed increase to the ALLL. Amounts are as of October 31, 2008.



     In the April 2008 and prior examinations, the FDIC and CDFI examiners consistently
     concluded that the bank’s ALLL methodology was adequate. The FDIC’s November
     2008 draft visitation report stated that loan deterioration necessitated large provisions to
     the ALLL, and thus reduced the bank’s capital position but did not specifically conclude
     on the adequacy of the ALLL methodology. The bank’s external auditors did not identify
     deficiencies in either the bank’s methodology or provisions to the ALLL during the
     annual financial statement audits performed for the years ending December 31, 2005,
     December 31, 2006, and December 31, 2007.



                                                          8
     Table 4, below, shows 1st Centennial’s net income (loss) and ALLL as of year-end for
     2004 through 2008. As indicated in Table 4, the need for a substantial increase in the
     ALLL during 2008, coupled with actual losses that year was a primary cause of the net
     loss for the year.

     Table 4: 1st Centennial’s Net Income (Loss) and ALLL (Dollars in Thousands)
                                    Dec        Dec         Dec           Dec            Dec
                                    2004       2005        2006          2007          2008
             Net Income            $3,757     $6,031      $8,992        $9,353       $(50,002)
               ALLL                $4,137     $5,376       $5,741       $6,805        $32,140
     Source: UBPRs for 1st Centennial.



Significant Loan Underwriting and Credit Administration Problems

     Significant loan underwriting and credit administration problems were identified during
     the April 2008 examination and November 2008 visitation. According to DSC, prior
     examinations did not identify similar problems because the bank either did not have
     problem assets, such as OREO, or problem assets were small in number. The ROEs for
     2004 through 2007 described loan underwriting and credit administration in terms such as
     adequate, satisfactory, and prudent. The ROEs for the 2004 and 2006 FDIC
     examinations also included examiner recommendations for improvement in various
     aspects of the bank’s loan underwriting and credit administration controls. For example,
     in the 2004 ROE, examiners recommended that 1st Centennial’s BOD and management
     (1) continue to closely monitor the bank’s real estate and construction loan
     concentrations; (2) implement a construction loan software program for detailed reports
     on the loan portfolio; (3) consider analyzing a sample of construction loans on a periodic
     basis, comparing actual performance of a project to the planned performance; and
     (4) present the results of such analysis to the bank’s loan committee. In its response to
     the FDIC, 1st Centennial stated that the bank had initiated a process to address the 2004
     recommendation. In addition, the 2006 ROE included minor recommendations to
     enhance concentration monitoring and reporting.

     Loan underwriting and credit administration problems that were identified during the
     April 2008 examination and reported in the ROE included, but were not limited to, the
     following:

         •   untimely non-accrual recognition,
         •   ineffective internal loan grading system,
         •   weak loan approval process,
         •   inadequate administration of OREO, and
         •   failure to report a violation to Appendix A of Part 365 of the FDIC’s Rules and
             Regulations concerning loans that exceeded the supervisory loan-to-value limits.

     High-Risk Owner-Occupied Single-Family Home Construction. In 2008, examiners
     also identified risks in the owner-occupied SFR construction portfolio due to liberal loan



                                                 9
     underwriting standards and incomplete borrower information. The bank allowed
     borrowers to qualify for loans without verifying the borrower’s income or assets.
     Additionally, 1st Centennial made these loans at 80 percent loan-to-value at origination
     in a declining real estate market. Further, 1st Centennial did not require loans under
     $1 million to be reviewed and approved by the bank’s loan committee. The examiners’
     review of these loans showed that information on the borrower’s ability to repay the loan
     was incomplete.

     Inappropriate Interest Reserve Payments. According to the April 2008 ROE, 1st
     Centennial used interest reserves to make interest payments totaling $781,000 for seven
     loans. Those loans had a total outstanding balance of $30.3 million. All seven loans
     were construction loans for which either construction progress had stopped or the units
     developed could not be sold. Instead of requiring the debtors and/or investors to make
     the interest payments, the bank improperly made the interest payments from the interest
     reserve portion of the loan funding. A total of $244,314 in improper loan interest
     payment entries were made during 2007 and $536,708 during 2008.

     The $781,000 in inappropriate interest payments improperly increased the bank’s capital
     and earnings, delayed the recognition of the non-accrual status of these seven loans, and
     delayed activities to minimize losses attributable to these loans. In addition, examiners
     identified weak internal controls associated with the use of interest reserves that included
     (1) a lack of segregation of duties, (2) a lack of senior management monitoring and
     oversight of troubled and criticized loans with interest reserves, and (3) weak policies and
     procedures for the use of interest reserves.

     November 2008 Visitation Results. The FDIC November 2008 visitation also identified
     many of the same loan underwriting and credit administration problems (the FDIC did
     not issue a final report on the visitation results) identified in the April 2008 examination.
     According to examiners, these underwriting and credit administration problems further
     exacerbated the bank’s losses due to construction loans continuing to falter since the
     April 2008 examination as a result of the continuing decline in sales and market values.
     Many of the bank’s loan files were incomplete and included only stale financial
     statements for the borrowers and guarantors, making it more difficult for the bank to
     determine a borrower’s and guarantor’s financial capability and seek repayment from the
     borrower’s and guarantor’s assets. These deficiencies increased the bank’s reliance on
     the property’s collateral value for repayment of the loan, which is risky in a declining real
     estate market. In addition, examiners stated that 1st Centennial’s credit administration
     was weak due to understaffing and unqualified staff.


Wholesale Funding

     Examiners found that 1st Centennial had relied on varying amounts of brokered deposits
     and FHLB borrowings during the examinations performed between May 2004 and
     February 2007 (as shown in Table 5 which follows), and that 1st Centennial’s reliance on
     those funds was generally in line with other banks in the bank’s peer group. However,



                                                  10
during the April 2008 examination, examiners found that 1st Centennial had (1) shifted to
a high-risk wholesale funding strategy during 2007 due to competition for local deposits,
(2) experienced a deficient core liquidity position since September 2007, and
(3) increased its reliance on brokered deposits to maintain liquidity. In addition,
examiners determined that the bank’s shift to a liability funding strategy in 2007,
combined with deteriorating loans and liquidity, created a high-risk environment for
which bank management had not established adequate controls. Further, 1st Centennial
needed to (1) implement additional controls and reporting to improve its management of
liquidity operations and (2) develop a more detailed contingency liquidity plan (CLP) to
provide guidance for anticipated liquidity problems.

Table 5: 1st Centennial’s Funding Sources by Examination Date
                                                                     Examination Date
                                                                     (Dollars in $000)
          Funding Sources Other
                                                 May 04        Jan 05     Apr 06       Feb 07        Apr 08
           Than Core Deposits*
 Brokered deposits                                $10,605      $10,928     $27,666      $50,234       $60,756
 FHLB Borrowings less than 1 year                     $10,000    $20,000            0          0       $64,500
 FHLB Borrowings greater than 1 year                        0           0           0          0        $15,000
 Certificates of Deposits over $100,000               $33,387    $40,078     $60,093 $109,101           $91,504
 Total                                                $53,992    $71,006     $87,759 $159,335         $231,760
Source: UBPRs for 1st Centennial.
* In addition to the non-core funding sources listed above, 1st Centennial also had other sources of funding,
such as lines of credit with other financial institutions. Access to non-core funding may have been
restricted as the bank’s financial condition deteriorated.



A key metric of the risks related to a bank’s liquidity management is the net non-core
funding dependence ratio. This ratio is an indication of the degree to which the bank
relies on non-core volatile liabilities, such as brokered deposits; FHLB borrowings to
fund long-term earning assets; and certificates of deposit over $100,000. Generally, the
lower the ratio, the less risk exposure there is for the bank, whereas higher ratios reflect a
reliance on funding sources that may not be available in times of financial stress or
adverse changes in market conditions. As noted in Figure 2, which follows, although 1st
Centennial’s reliance on non-core/volatile liabilities was higher than the bank’s peer
group at the May 2004 examination, the January 2005 and April 2006 examinations
determined that the bank was generally in line with its peer group. However, the bank’s
net non-core funding dependence ratios of 28.60 and 44.12 percent were higher than the
bank’s peer group as of the February 2007 and April 2008 examinations, respectively. In
addition, during the November 2008 visitation, the bank’s dependence ratio had increased
to 68.39 percent. According to DSC officials, the increase in 1st Centennial’s brokered
deposits and overall net non-core funding dependence during 2008 was in anticipation of
liquidity events related to increasing levels of core deposit withdrawals. DSC officials
also stated that 1st Centennial anticipated those substantial deposit withdrawals due to
expected negative press associated with the firing of the bank’s Chief Executive Officer
and Chief Credit Officer, and with other bank failures that had occurred in 1st
Centennial’s local market area.



                                                    11
                               Figure 2: Net Non-Core Funding Dependence


               50%

               40%                                                            44.12%
                                                                                           27.29%
               30%
       Ratio




                                                                                                    1st Centennial
                      20.56%                                    28.60%
                                                                                                    Peer
               20%
                                 21.16%           11.68%
               10%
                               13.73%        21.21%         22.29%            24.46%
               0%
                        May-04          Jan-05        Apr-06         Feb-07            Apr-08
                                                 Examination Date
                     Source: OIG review of ROEs and UBPRs for 1st Centennial.


    After the FDIC meeting with the bank’s BOD on June 20, 2008 to discuss examination
    results, 1st Centennial’s BOD reported that depositors withdrew over $130 million in
    deposits during July and August 2008. During this same period, 1st Centennial
    purchased $224 million in brokered deposits to provide the liquidity needed to address its
    actual and potential core deposit withdrawals. By the end of October 2008, the bank had
    purchased $303 million in brokered deposits. The bank used excess funds primarily to
    purchase negotiable securities. As the bank’s financial condition became critical, the
    FDIC monitored 1st Centennial’s liquidity. On October 31, 2008, regulatory restrictions
    prohibited the bank’s further use of brokered deposits as a funding source without first
    obtaining a waiver from the FDIC.


ASSESSMENT OF FDIC SUPERVISION

    The FDIC and CDFI conducted timely examinations of 1st Centennial from 2004 until
    the bank closed in 2009. Examiners identified and reported on 1st Centennial’s
    concentrations and the risks that those concentrations presented. In addition, examiners
    made recommendations related to the need for adequate monitoring and reporting.
    However, there were two areas where the FDIC’s supervisory activities regarding 1st
    Centennial could have been improved. These two areas related to supervisory actions
    needed to address the bank’s high CRE/ADC concentration and the implementation of a
    formal enforcement action after the bank’s condition had deteriorated. (See the
    Chronology of Significant Events in Appendix 4 of this report for additional details.)

    At the April 2008 examination, examiners downgraded 1st Centennial’s composite rating
    from 2 to 4, indicating unsafe and unsound practices or conditions and an imminent threat
    to the bank’s viability. The transmittal letter for the April 2008 ROE stated that the FDIC
    considered 1st Centennial to be “troubled” for purposes of section 32 of the FDI Act,
    which would require 1st Centennial to notify the FDIC of any management changes, and


                                                           12
      Part 359 of the FDIC Rules and Regulations, which placed certain restrictions on
      payments to institution-affiliated parties. In December 2008, examiners further
      downgraded 1st Centennial’s composite rating to 5, indicating extremely unsafe and
      unsound practices or conditions that pose a significant risk to the DIF and that the bank
      had a high probability of failure.

      1st Centennial attempted to raise $30 million in capital by August 1, 2008 but was
      unsuccessful. To address examination concerns, including those related to
      concentrations, inadequate risk management controls, and other safety and soundness
      issues, the FDIC and CDFI jointly sent the bank a draft Cease and Desist Order (C&D)
      on October 8, 2008.

      Negotiations ensued between the bank and the FDIC and CDFI over C&D language until
      November 12, 2008, when 1st Centennial broke off further negotiations and stated that it
      would not stipulate to the proposed C&D. On November 14, 2008, the FDIC issued
      1st Centennial a Notice of Charges (NOC) that contained provisions similar to those in
      the C&D. The NOC was still pending an administrative hearing when the bank failed on
      January 23, 2009.

      The CDFI and FDIC performed a joint visitation of the bank in November 2008 that
      identified further losses and deterioration in 1st Centennial’s CRE/ADC loan portfolio.
      The bank was issued a capital demand letter, PCA notification letter, and letter notifying
      1st Centennial of downgrades to the bank’s CAMELS ratings on December 19, 2008.
      The Capital Demand Letter required the bank to raise $78 million in additional capital
      within 60 days ($60 million within 30 days, followed by an additional $18 million) to
      replenish the losses in the bank’s capital. Unfortunately, 1st Centennial was unable to
      raise the needed capital and was closed by the CDFI on January 23, 2009.


Supervision Related to the CRE/ADC Concentration

      Based on our review, the FDIC could have increased supervisory efforts concerning the
      risk inherent in the bank’s CRE/ADC loan concentration. The FDIC had identified 1st
      Centennial’s CRE/ADC loan concentrations in each of its examinations, starting in 2004,
      but determined that the risk was mitigated based on the bank’s policies, controls, and
      monitoring activities. As noted below, examinations prior to 2008 noted significant
      concentrations and made recommendations to 1st Centennial to improve issues,
      including, but not limited to, monitoring and reporting practices.

      The 2004 ROE reported that the high concentration of real estate loans, and more
      specifically, construction loans, remained an added risk to the bank that required
      management’s continued close attention. Regarding the 2004 examination, the FDIC
      concluded that the bank had a strong capital level, which mitigated some of the risk
      associated with the concentration. Further, the 2005 ROE stated that asset quality was
      strong, and the 2006 ROE noted that although the bank was operating with a




                                                  13
concentration in construction lending, management was effectively monitoring and
managing this risk.

According to the December 2006 joint guidance entitled, Concentrations in Commercial
Real Estate Lending, Sound Risk Management Practices, CRE lending, in general, and
construction lending, in particular, may require a greater level of supervisory oversight.
Although the guidance was not intended to limit financial institutions’ CRE lending, the
guidance states that an institution may be identified for further supervisory analysis of the
level and nature of risk if it has experienced rapid growth in CRE lending, has notable
exposure to a specific type of CRE, or is approaching or exceeds the following
supervisory criteria:

       •   total reported loans for construction, land development, and other land
           represent 100 percent or more of the institution’s total capital; or

       •   total CRE loans represent 300 percent or more of the institution’s total capital,
           and the outstanding balance of the institution’s CRE loan portfolio has
           increased by 50 percent or more during the prior 36 months.

The 2007 ROE noted that the bank continued to have substantial land and development
concentrations but that management had effectively controlled the bank’s credit risks.
Given that the CRE/ADC loan concentrations (shown on page 6 of this report) far
exceeded the supervisory criteria in the 2006 CRE guidance, additional examiner
attention to the associated risks was warranted. For example, the CRE lending guidance
emphasized that financial institutions should hold capital commensurate with the level
and nature of the risk presented by CRE concentrations. An assessment of capital
adequacy by the institution may have been warranted under these circumstances. In
addition, the guidance reminds institutions that strong risk management practices are
essential elements of a sound CRE lending program, particularly when an institution has
a concentration in CRE/ADC loans. FDIC officials stated that examiners cautioned 1st
Centennial’s BOD and management in various ROEs regarding the risks associated with
the bank’s large CRE/ADC concentration.

By the April 2008 examination, FDIC examiners had determined that 1st Centennial’s
asset quality was deficient and had seriously deteriorated as of March 31, 2008 when
adversely classified assets totaled $109.6 million and the ALLL needed to be increased
by $6.0 million. Examiners determined that while the market negatively affected the
institution, 1st Centennial’s BOD and management’s lack of controls and oversight of the
CRE portfolio played an important part in the significant losses. Examiners determined
that adversely classified assets were centered in the CRE/ADC loan portfolio with loan
classifications comprising $101.9 million (93 percent) of the $109.6 million and OREO
asset classifications comprising the remaining 7 percent. The $109.6 million of adversely
classified assets represented 177.6 percent of 1st Centennial’s Tier 1 Capital plus reserves
($61.7 million). The 2008 examination findings stand in sharp contrast to the 2007 and
prior examination results.




                                             14
      The April 2008 ROE stated that the bank’s capital had deteriorated to a level insufficient
      for the bank’s high-risk profile. The Risk Management Manual of Examination Policies
      (Examination Manual) states that the “FDIC is not precluded from requiring an institution
      to maintain a higher capital level based on the institutions particular risk profile.” We
      found no evidence prior to the 2008 examination that the FDIC had considered the
      deterioration of capital or the need to increase capital to support the bank’s increased risk
      profile and the significant CRE/ADC and geographic concentration. In 2008, 1st
      Centennial responded to the capital insufficiency by stating that the bank planned to raise
      $30 million in capital by August 1, 2008 through an investment banking firm but was
      ultimately unsuccessful in generating the needed capital.

      Although examiners identified and reported 1st Centennial’s CRE/ADC loan
      concentration, including the types and extent; inadequate risk management controls; and
      inadequate loan underwriting and credit administration practices; additional supervisory
      action related to those risks was not taken until October 2008, as discussed in detail later
      in this section of this report.


Formal Enforcement Action Implementation

      The FDIC pursued formal enforcement action after the June 20, 2008 meeting with 1st
      Centennial’s BOD regarding the April 2008 examination because of the bank’s
      deteriorated condition and composite 4 rating. However, the final ROE was not formally
      transmitted to the bank until August 13, 2008. San Francisco Regional Office (SFRO)
      officials explained that the delay in issuing the final ROE occurred because of staff
      assignments but that the SFRO had been in contact with 1st Centennial management
      during that period to discuss the examination findings and recommendations. For
      example, 1st Centennial senior management submitted a Criticized Assets Action Plan to
      the SFRO in response to the April 2008 examination findings and recommendations.

      The FDIC and CDFI jointly pursued a Section 8(b) C&D and formally transmitted the
      proposed C&D to the bank on October 8, 2008. The proposed C&D required the bank,
      among other things, to:

         •   increase Tier 1 Capital by no less than $30 million;

         •   develop or revise, adopt, and implement a policy for determining the adequacy of
             the ALLL;

         •   develop or revise, adopt, and implement a written liquidity and funds
             management policy; and

         •   provide a plan to eliminate reliance on brokered deposits.

      After conducting 5 weeks of negotiations with 1st Centennial management over the terms
      of the proposed C&D, bank management notified the FDIC on November 12, 2008 that it



                                                   15
      would not stipulate to the C&D. The FDIC then issued an NOC on November 14, 2008
      that required a judicial hearing with a Federal Administrative Law Judge prior to
      becoming effective. The NOC contained a broad range of supervisory restrictions on
      bank operations that were similar to those contained in the proposed C&D. The NOC
      was still pending judicial review and adjudication when the bank failed on January 23,
      2009.


Additional Supervisory Action

      The CDFI started an independent examination of the bank on November 17, 2008 to
      review and assess 1st Centennial’s construction loan portfolio to obtain up-to-date
      information needed to issue a C&D that would become effective on issuance. The FDIC
      joined the CDFI examination loan review and began a visitation on November 24, 2008,
      which was later to become a joint FDIC/CDFI visitation. The visitation reviewed the
      construction loan portfolio as of October 31, 2008 and resulted in examiners classifying
      $115.4 million in construction loans, which represented 55.4 percent of the bank’s
      construction loan portfolio.

      The SFRO staff met with 1st Centennial management along with CDFI and officials from
      the Board of Governors of the Federal Reserve System7 on December 19, 2008 when
      bank management received a letter notifying the bank of downgrades in the CAMELS
      ratings, a PCA deficiency letter, and a capital demand letter. The downgrade letter
      downgraded the bank’s composite and all component ratings to a 5 (critically deficient).
      The PCA deficiency letter notified bank management that 1st Centennial’s capital
      category was Critically Undercapitalized. The capital demand letter informed the bank
      that $60 million in capital was required within 30 days and that an additional $18 million
      in capital was required within 60 days for a combined total of $78 million in additional
      capital.


Actions Taken Subsequent to 1st Centennial’s Failure

      The SFRO established a 2009 regional operational goal to ensure that enforcement
      actions are presented to the financial institution within 30 days of the examination
      completion date. The SFRO has also streamlined the process used to shorten the time
      needed to coordinate and issue a C&D with CDFI. Additionally, DSC has begun issuing
      an examination exit letter to 4 or 5 composite-rated institutions that they must notify the
      FDIC prior to any material change in their balance sheet to include large brokered deposit
      acquisitions. The SFRO has also taken steps to strengthen offsite monitoring of financial
      data by enhancing current offsite monitoring with reports that identify and rank
      institutions with characteristics that include concentrations and high levels of wholesale
      funding.


      7
       The Board of Governors of the Federal Reserve System provided regulatory supervision for the bank’s
      holding company, 1st Centennial Bancorp.


                                                        16
IMPLEMENTATION OF PCA

    Enforcement actions addressing 1st Centennial’s capital deficiencies were taken in
    accordance with PCA capital-related provisions. Based on the supervisory actions taken,
    the FDIC properly implemented applicable PCA provisions of section 38 in a timely
    manner.

    The purpose of PCA is to resolve problems of insured depository institutions at the least
    possible long-term cost to the DIF. PCA establishes a system of restrictions and
    mandatory and discretionary supervisory actions that are to be triggered depending on an
    institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
    PCA requirements by establishing a framework for taking prompt corrective action
    against insured nonmember banks that are not adequately capitalized.

    The FDIC evaluated 1st Centennial’s capital position and assigned a capital component
    rating of 2 in the 2006 and 2007 examinations, indicating a satisfactory capital level.
    Subsequently, the 2008 examination downgraded the bank’s capital rating to a 4,
    indicating an insufficient level of capital for the bank’s high-risk profile. Bank
    management indicated to examiners that it would raise $30 million in capital by
    August 1, 2008, but that effort never materialized. As a result, the FDIC proposed a
    C&D in October 2008 that contained several capital-related provisions even though the
    bank’s reported PCA capital ratios had been in the Well Capitalized range. These
    provisions included:

       •   maintaining Tier 1 Capital at, or in excess of, 11 percent of the bank’s total assets;
       •   implementing a written profit plan; submitting to the FDIC and CDFI a written
           strategic plan and comprehensive budget; and,
       •   restricting the payment of dividends without prior written consent of the FDIC
           and CDFI.

    As discussed earlier, the FDIC’s attempt to issue a C&D to 1st Centennial was not
    timely, and the C&D was ultimately not issued. The bank was subsequently deemed
    Adequately Capitalized with the filing of the bank’s September 30, 2008 Report of
    Condition and Income (Call Report). Accordingly, upon the bank’s filing of its Call
    Report, the availability of brokered deposits became restricted.

    Examiners concluded that the bank’s capital was critically deficient based on information
    as of November 30, 2008. The FDIC submitted an interim downgrade letter to the bank,
    downgrading the capital rating to a 5 and categorizing the bank as Critically
    Undercapitalized. The FDIC formally notified the bank of this categorization in a PCA
    Notification Letter, dated December 19, 2008. The letter stated that the bank was subject
    to the mandatory requirements of section 38 of the FDI Act including, but not limited to,
    submission of a written capital restoration plan, restrictions on asset growth, and
    payments of dividends. Some of these requirements reiterated provisions included in the
    proposed C&D. On December 19, 2008, CDFI informed 1st Centennial that CDFI may
    take “extreme action against the bank” unless the bank merged with another institution,



                                                17
    sold its business to another depository institution, or increased capital by $78 million.
    The bank was unsuccessful in accomplishing any of those actions and was subsequently
    closed January 23, 2009.

    PCA’s focus is on capital, and capital can be a trailing indicator of an institution’s
    financial health. In addition, the use of PCA Directives can depend on the accuracy of
    capital ratios in a financial institution’s Call Reports. 1st Centennial’s reported capital
    ratios remained in the Well Capitalized to Adequately Capitalized range long after its
    operations had begun to deteriorate as noted in the April 2008 ROE.


CORPORATION COMMENTS AND OIG EVALUATION

    On August 4, 2009, the Director, DSC, provided a written response to the draft report.
    DSC’s response is provided in its entirety as Appendix 3 of this report. In its response,
    DSC noted that 1st Centennial’s asset growth and concentration of CRE/ADC loans
    began in 2004 as a result of the expanding population in Southern California’s Inland
    Empire where the bank’s branch offices were located. DSC noted that when the bank
    began its concentration of CRE/ADC loans, it had strong capital levels and was well
    above the minimum levels of Well Capitalized for PCA purposes. The response further
    noted that FDIC examinations made specific recommendations to 1st Centennial’s
    management for improving, monitoring, and analyzing the bank’s loan concentrations.

    DSC stated that 1st Centennial failed due to the risk embedded in its loan concentrations
    and funding strategies and due to a decline in the bank’s local real estate market. The
    response further noted that the bank’s recovery efforts from the loan losses were
    negatively affected by other market events that caused a large volume of deposit
    withdrawals and an upheaval in the secondary mortgage market. Further, DSC
    acknowledged that 1st Centennial’s management had delayed the implementation of the
    C&D in 2008 through protracted negotiations and refusal to stipulate to the action. The
    OIG takes no exception to these comments.

    The Director also stated that subsequent to 1st Centennial’s failure, DSC (1) conducted
    an internal analysis, (2) has taken specific steps to limit growth that is funded by volatile
    non-core deposits, and (3) recognizes the threat that institutions with high-risk profiles,
    such as 1st Centennial’s pose to the DIF.




                                                 18
                                                                                    APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which provides
      that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, on or after July 1, 1993, the Inspector General of the appropriate
      federal banking agency shall prepare a report to that agency reviewing the agency’s
      supervision of the institution. The FDI Act requires that the report be completed within
      6 months after it becomes apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from March to July 2009 in accordance with generally accepted
      government auditing standards. However, due to the limited scope and objectives
      established for material loss reviews, which are generally applied to just one financial
      institution, it may not have been feasible to address certain aspects of the standards, as
      described on the next page.


Scope and Methodology

      The scope of this audit included an analysis of 1st Centennial’s operations from
      March 31, 2004 until its failure on January 23, 2009. Our review also entailed an
      evaluation of the regulatory supervision of the institution from 2004 to 2009.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports prepared by the FDIC and CDFI
                 from 2004 to 2008.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at DSC’s SFRO and Los Angeles
                       North Field Office.

                   •   Reports prepared by the Division of Resolutions and Receiverships (DRR)
                       and DSC relating to the bank’s closure.

                   •   Records of the bank’s external auditor.




                                                      19
                                                                                      APPENDIX 1


                 •   Pertinent DSC policies and procedures.

           •   Interviewed the following FDIC officials:

                 •   DSC management in San Francisco, California.

                 •   DSC examiners in Los Angeles who participated in 1st Centennial
                     examinations.

           •   Met with officials from the CDFI to discuss their historical perspective of the
               institution, its examinations, state banking laws, and other activities regarding the
               CDFI’s supervision of the bank.

           •   We performed the audit field work at the DSC offices in Los Angeles and San
               Francisco, California.

      Our ability to evaluate the adequacy of DSC supervisory efforts was restricted by the lack
      of FDIC examination work papers for the 2006 FDIC examination which resulted in a 2
      composite rating for the bank. We were informed that the 2006 examination work papers
      had been destroyed prior to the commencement of our review. According to DSC, it was
      a common practice to destroy work papers for examinations that resulted in a 1 or 2
      composite rating after a subsequent examination had been completed. Regional Directors
      Memorandum 01-039, Guidelines for Examination Workpapers and Discretionary Use of
      Examination Documentation Modules, dated September 25, 2001, and the Examination
      Manual notes that, with some exceptions, the retention of work papers beyond one
      examination is generally discouraged.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of 1st
      Centennial’s management controls pertaining to its operations as discussed in the body of
      this report.

      For purposes of the audit, we did not rely on computer-processed data to support our
      significant findings and conclusions. Our review centered on interviews, ROEs and
      correspondence, and other evidence to support our audit.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the




                                                    20
                                                                           APPENDIX 1


Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                           21
                                                                                   APPENDIX 2
                                GLOSSARY OF TERMS


      Term                                              Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to highest)
                    into three categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is
Loan and Lease      adequate to absorb the estimated loan losses associated with the loan and lease
Losses (ALLL)       portfolio (including all binding commitments to lend). To the extent not
                    provided for in a separate liability account, the ALLL should also be sufficient
                    to absorb estimated loan losses associated with off-balance sheet loan
                    instruments such as standby letters of loan.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator to a bank or affiliated party to stop an unsafe or unsound practice or a
                    violation of laws and regulations. A C&D may be terminated when the bank’s
                    condition has significantly improved and the action is no longer needed or the
                    bank has materially complied with its terms.

Concentration       A concentration is a significantly large volume of economically related assets
                    that an institution has advanced or committed to a certain industry, person,
                    entity, or affiliated group. These assets may, in the aggregate, present a
                    substantial risk to the safety and soundness of the institution.

Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the DIF. Part 325 of the
(PCA)               FDIC Rules and Regulations, 12 Code of Federal Regulations, section 325.101,
                    et. seq., implements section 38, Prompt Corrective Action, of the FDI Act, 12
                    United States Code section 1831o, by establishing a framework for taking
                    prompt supervisory actions against insured nonmember banks that are less than
                    adequately capitalized. The following terms are used to describe capital
                    adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                    Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action or
                    compliance with the PCA statute with respect to an institution that falls within
                    any of the three categories of undercapitalized institutions.

Uniform Bank        The UBPR is an individual analysis of financial institution financial data and
Performance         ratios that includes extensive comparisons to peer group performance. The
Report (UBPR)       report is produced by the Federal Financial Institutions Examination Council
                    for the use of banking supervisors, bankers, and the general public and is
                    produced quarterly from Call Report data submitted by banks.




                                              22
                                                                                                                 APPENDIX 3
                                CORPORATION COMMENTS
Ä




    FDII
    Federal Deposit Insurance Corporation
    550 17ll Street NW. Washington. DC 2029-99                               Division of Supervsion and Consumer Protecion


                                                                            August 4, 2009


    MEMORANDUM TO:                      Russell A. Rau
                                        Assistant Inspector General for Audits

    FROM:                               Sandra L. Thompson
                                        Director

    SUBJECT:                            Draft Audit Report Entitled, Material Loss Review of 151
                                        Centennial Ban, Redlands, California (Assignent No. 2009-019)


    Pursuant to Section 38(k) of       the Federal Deposit Insurace Act (FDI Act), the Federal Deposit
    Insurance Corporation's Offce ofinspector General (OIG) conducted a material          loss review of
    ll Centennial Bank (151 Centennial), which failed on Janua 23, 2009. This memorandum is the
    response ofthe Division of Supervision and Consumer Protection (DSC) to the OIG's Draft
    Audit Report received on July 20, 2009.

    Beginning in 2004 ll Centennial pursued asset growth concentrated in commercial real
    estate/acquisition, development, and construction (CRE/ADC) loans, primarily as a result of
    expanding population in Southern California's Inland Empire. 151 Centennial's branches were
    located in the Inland Empire. Thus, its lending was concentrated in that geographic area. When
    i 51 Centennial began holding notable CRE ADC concentrations in 2004, its capital levels were
    strong and well above minimum levels to be "Well Capitalized" for Prompt Corrective Action
    purpses. FDIC examinations in 2004, 2006, and 2008 made specific recommendations to the
    Board for improving, monitoring and performing internal analyses of its concentrations, with a
    formal enforcement action recommended after the April 2008 examination. After protracted
    negotiations, 151 Centennial's Board refused to stipulate to the Cease and Desist Order, and the
    FDIC fied a Notice of Charges.

     i 51 Centennial failed due to the risk embedded in its loan concentrations and funding strategies
    and due to a decline in its local real estate market. Recovery efforts were also significantly
    hampered by other market events that led to a large volume of deposit withdrawals and
    secondary mortgage market upheavaL. DSC conducted an internal analysis following the failure
    of 151 Centennial and has taken specific steps to limit growth that is funded by volatile non-core
    deposits. We recognize the threat that institutions with high-risk profiles, such as 151 Centennial,
    pose to the Deposit Insurance Fund; and we continue to look for and implement improvements to
    our supervisory program.

    Than you for the opportunity to review and comment on the Draft Audit Report.




                                                           23
                                                                                    APPENDIX 4
                         CHRONOLOGY OF SIGNIFICANT EVENTS


   Date                                                   Event
5-24-2004    Full-scope FDIC examination - UFIRS ratings were 2-2-2-2-2-2/2. 1st Centennial’s overall
             financial condition was satisfactory.
1-31-2005    Full-scope CDFI examination - UFIRS ratings were 2-1-2-2-3-2/2. 1st Centennial was stated to
             be fundamentally sound.
4-24-2006    Full-scope FDIC examination - UFIRS ratings were 2-2-1-1-2-1/2. 1st Centennial’s overall
             financial condition continued to be satisfactory. The bank used a limited amount of brokered
             deposits as a funding source.
2-26-2007    Full-scope CDFI examination - UFIRS ratings were 2-2-1-1-2-2/2. The condition of the bank
             was satisfactory.
4-7-2008     Full-scope FDIC examination - UFIRS ratings were 4-4-4-4-4-3/4. 1st Centennial needed to
             raise $30 million in capital by August 1, 2008.
5-22-2008    FDIC completed fieldwork on examination.
6-11-2008    FDIC held an exit meeting with 1st Centennial’s management.
6-20-2008    FDIC held a meeting with 1st Centennial’s BOD to discuss the ROE and that the FDIC/CDFI
             would propose a joint C&D based upon the weaknesses identified in the ROE.
8-8-2008     FDIC started daily liquidity monitoring.
8-13-2008    FDIC sent the April 2008 final ROE to 1st Centennial’s BOD.
9-16-2008    Proposed C&D sent to CDFI for review.
9-30-2008    CDFI discussed C&D changes with the FDIC; 1st Centennial letter sent to the FDIC discussed
             setting up a meeting to discuss the bank’s capital plan, loan portfolio, ALLL, and brokered
             deposits.
10-8-2008    Joint C&D sent to 1st Centennial.
10-28-2008   Proposed C&D language was negotiated between the FDIC and 1st Centennial.
10-31-2008   1st Centennial notified the FDIC that the bank’s capital category would decline from Well
             Capitalized to Adequately Capitalized based on the filing of the September 30, 2008 Call
             Report.
11-12-2008   1st Centennial’s management notified the FDIC that they would not stipulate to the proposed
             C&D; the FDIC commenced onsite liquidity monitoring.
11-14-2008   The FDIC issued the NOC to 1st Centennial.
11-17-2008   The CDFI began a full-scope examination of 1st Centennial which was later changed to a
             visitation.
11-24-2008   The FDIC started a visitation of 1st Centennial.
12-19-2008   Joint FDIC/CDFI interim downgrade letter sent to 1st Centennial based on November 30, 2008
             financial data – UFIRS ratings were 5-5-5-5-5-5/5. The CDFI Capital Demand letter required
             the bank to raise $78 million in capital. The FDIC issued a Critically Undercapitalized PCA
             notification letter to the bank.
01-08-2009   1st Centennial forwarded the Capital Restoration Plan to the FDIC and CDFI.
01-23-2009   The CDFI closed 1st Centennial and appointed the FDIC as receiver.




                                                   24
                                                              APPENDIX 5
                ACRONYMS IN THE REPORT



Acronym   Definition
ADC       Acquisition, Development, and Construction
ALLL      Allowance for Loan and Lease Losses
BOD       Board of Directors
C&D       Cease and Desist Order
CAMELS    Capital, Asset Quality, Management, Earnings, Liquidity, and
          Sensitivity to Market Risk
CDFI      California Department of Financial Institutions
CLP       Contingency Liquidity Plan
CRE       Commercial Real Estate
DIF       Deposit Insurance Fund
DRR       Division of Resolutions and Receiverships
DSC       Division of Supervision and Consumer Protection
FDI       Federal Deposit Insurance
FDIC      Federal Deposit Insurance Corporation
FHLB      Federal Home Loan Bank
MERIT     Maximum Efficiency, Risk Focused, Institution Targeted
          Guidelines
NOC       Notice of Charges
OIG       Office of Inspector General
OREO      Other Real Estate Owned
PCA       Prompt Corrective Action
ROE       Report of Examination
SFR       Single-Family Residence
SFRO      San Francisco Regional Office
UBPR      Uniform Bank Performance Report
UFIRS     Uniform Financial Institution Rating System




                               25
